TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Controls Over Employee Telephone Calling
                   Cards Are Insufficient to Identify Waste,
                              Fraud, and Abuse



                                          March 19, 2009

                              Reference Number: 2009-10-050




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 19, 2009


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Controls Over Employee Telephone Calling
                             Cards Are Insufficient to Identify Waste, Fraud, and Abuse
                             (Audit # 200810016)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) established effective controls to identify and address instances of waste, fraud, and abuse
 relating to the use of employee telephone calling cards. In addition, we followed up on prior
 audit recommendations to determine whether corrective actions were completed to fully address
 selected audit findings. This review was part of our Fiscal Year 2008 Annual Audit Plan and
 addresses the major management challenge regarding Erroneous and Improper Payments.

 Impact on the Taxpayer
 As of February 2008, the IRS had issued approximately 34,000 telephone calling cards to its
 employees. Between October 2005 and April 2008, approximately $8.4 million was charged to
 telephone calling cards held by IRS employees. However, the IRS has not established effective
 controls to identify and address improper use of these cards, and the control weaknesses are the
 same weaknesses we identified in Fiscal Year 2004. For example, our limited analysis of
 telephone calling card billing records identified that from June 2007 through June 2008, the IRS
 incurred charges of approximately $59,000 for improper telephone calls made between the
 United States and various foreign countries on a single calling card. Effective controls over
 telephone calling cards are critical to the IRS’ ability to ensure accountability and timely identify
 and address waste, fraud, and abuse.
                Controls Over Employee Telephone Calling Cards Are Insufficient
                              to Identify Waste, Fraud, and Abuse




Synopsis
Overall, the IRS lacks effective controls over telephone calling cards issued to employees.
Specifically, telephone calling card charges are not routinely reviewed for waste, fraud, and
abuse, and a comprehensive inventory of telephone calling cards is not completed annually.
Further, the control weaknesses identified in this review are the same weaknesses we identified
in a review of telecommunications costs in Fiscal Year 2004.1 During that review, we reported
that an effective managerial review process for telephone calling card use had not been
implemented, and annual inventories of telephone calling cards had not occurred on a consistent
basis.
We further reported that the Telecommunications Asset Tool (TAT) system, which the IRS
implemented in June 2003 to improve controls over telecommunications costs, had not been
effectively implemented and critical information was not being captured by the system. In
response to our report, the IRS stated that the deficiencies in the TAT system would be corrected
through system upgrades, implementation of procedures requiring an annual inventory of
telephone calling cards, and routine reviews of telephone calling card charges. However, these
corrective actions were either not taken or, if taken, were not supported by sufficient and
sustained managerial oversight to ensure that they provided a long-term and effective solution to
the issues they were designed to correct.
For example, during the period October 2005 through August 2008, the IRS successfully
reviewed telephone calling card charges for potential waste, fraud, or abuse only once. This
review was performed in June 2008 using the TAT system and was limited to an analysis of
telephone calls placed in March 2008. Also, teleconferencing-related2 telephone calling card
charges were not analyzed during the June 2008 review for unusual trends indicative of potential
waste or improper use. Teleconference-related charges constituted $7.4 million of the
approximately $8.4 million charged to telephone calling cards between October 2005 and
April 2008.
We believe limiting the TAT system quarterly reviews to an analysis of only 1 month of
telephone call activity is not sufficient to effectively and timely identify potential waste, fraud,
and abuse relating to the use of telephone calling cards. In addition, the IRS has not validated its
telephone calling card inventory since early in Fiscal Year 2006. Finally, although the TAT
system was designed to allow for the analysis and certification of monthly telecommunications
billings by IRS business units and operating divisions, monthly billing information relating to
telephone calling card charges is neither shared with nor certified by the IRS functions whose
employees actually incurred the charges.

1
  Telecommunications Costs Controls Have Not Been Effectively Implemented and Should Continue to Be Improved
and Monitored (Reference Number 2004-20-156, dated September 2004).
2
  Teleconferencing allows employees from multiple locations to communicate on the same telephone call.
                                                                                                           2
               Controls Over Employee Telephone Calling Cards Are Insufficient
                             to Identify Waste, Fraud, and Abuse



The IRS provided us with a number of reasons for the lack of both routine reviews of telephone
calling card charges and annual comprehensive inventories of telephone calling cards. These
reasons included: 1) technical problems in loading billing data into the TAT system; 2) failure to
provide the required computer matching program notification to the Office of Management and
Budget and members of Congress in a timely manner, which must occur before the system can
be used for this type of analysis; and 3) a lack of the resources needed to support the inventory
process. However, we believe the primary cause of the ongoing control weaknesses is a lack of
sustained and effective management oversight.

Recommendations
We recommended that the Chief Technology Officer (CTO) reinforce the need to review
telephone calling card charges quarterly for waste, fraud, and abuse and designate a specific
executive within the CTO function as responsible for ensuring the reviews are completed. We
also recommended that a comprehensive assessment of the operational capabilities of the TAT
system be performed. This assessment should focus on: 1) identification of the management
information the IRS needs to effectively manage telecommunications costs; 2) a comparison of
the functionality currently provided by the TAT system to meet these needs; and 3) an evaluation
of the costs associated either with upgrading the TAT system to meet these needs or developing
an alternative methodology for managing telephone calling card costs. Finally, we
recommended the CTO reinforce the need to conduct inventories of telephone calling cards
annually and designate a specific executive within the CTO function as responsible for ensuring
the inventories are completed. These inventories should focus on both verifying information on
record regarding the cardholder as well as validating that the cardholder still needs the telephone
calling card for business purposes.

Response
IRS management agreed with all of our recommendations. The Director of Enterprise Voice
Services is the designated executive responsible for ensuring that the telephone calling card
charges are reviewed for waste, fraud, and abuse on a quarterly basis. The IRS will also modify
the current waste, fraud, and abuse runs to allow for a quarterly review of a sampling of the data
captured across all 3 months of that quarter. Additionally, the IRS will perform a comprehensive
assessment of the TAT system, including conducting market/industry research and performing a
gap analysis against management information needs. Finally, the Director of Enterprise Voice
Services is the designated executive who will ensure that an annual validation of the calling
cards is in place. Management’s complete response to the draft report is included in
Appendix V.



                                                                                                  3
             Controls Over Employee Telephone Calling Cards Are Insufficient
                           to Identify Waste, Fraud, and Abuse



Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.




                                                                                           4
                    Controls Over Employee Telephone Calling Cards Are Insufficient
                                  to Identify Waste, Fraud, and Abuse




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Telephone Calling Card Charges Are Not Routinely Reviewed
          for Waste, Fraud, and Abuse.........................................................................Page 3
                    Recommendations 1 and 2: ................................................Page 5

          A Comprehensive Inventory of Telephone Calling Cards
          Is Not Completed Annually ..........................................................................Page 6
                    Recommendation 3:..........................................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Outcome Measure ................................................................Page 12
          Appendix V – Management’s Response to the Draft Report .......................Page 13
      Controls Over Employee Telephone Calling Cards Are Insufficient
                    to Identify Waste, Fraud, and Abuse




                      Abbreviations

CTO             Chief Technology Officer
IRS             Internal Revenue Service
TAT             Telecommunications Asset Tool
                 Controls Over Employee Telephone Calling Cards Are Insufficient
                               to Identify Waste, Fraud, and Abuse




                                          Background

The use of telephone calling cards issued to employees
of the Internal Revenue Service (IRS) represents a             The use of telephone calling
potential high risk because the cards are frequently         cards issued to IRS employees
subject to misuse and theft. As of February 2008, the        represents a potential high risk
                                                                   for misuse and theft.
IRS had approximately 34,000 telephone calling cards.
In addition to using these cards for telephone calls,
employees can schedule teleconferences, which allow
employees from multiple locations to communicate on the same telephone call. During the
period October 2005 through April 2008, the IRS incurred approximately $8.4 million in charges
related to employee telephone card usage. The approximately $8.4 million in total charges was
comprised of $7.4 million in charges related to teleconference calls and $l million in charges
related to telephone calls.
We conducted two prior reviews of telephone calling cards and identified significant control
weaknesses over this telecommunications resource in both reviews. Specifically, a Treasury
Inspector General for Tax Administration review completed in Fiscal Year 20021 found that
standardized policies and procedures were not issued to clearly define the roles and
responsibilities for effectively managing and operating various telecommunications programs,
and management actions were not adequate to ensure that corrective actions were implemented
effectively and in a timely manner.
To improve internal controls over telecommunications costs, the IRS implemented the
Telecommunications Asset Tool (TAT) system in June 2003. The TAT system was designed to
aid in managing telecommunications expenditures, processing local telephone bills, and
identifying waste, fraud, and abuse of telephone services, including those related to telephone
calling cards. Located at the IRS Detroit Computing Center,2 the TAT system was designed to
accumulate a variety of information regarding telephone calling card usage, such as the cost per
call and length of calls. One of the key features of the TAT system is the Waste, Fraud, and
Abuse program. The Waste, Fraud, and Abuse program was designed to prepare periodic reports
listing any employees with questionable telephone usage.




1
  Controls Over the Telecommunications Programs Continue to Need Improvement (Reference Number
2002-20-198, dated September 2002).
2
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
                                                                                                      Page 1
                Controls Over Employee Telephone Calling Cards Are Insufficient
                              to Identify Waste, Fraud, and Abuse



However, a subsequent Treasury Inspector General for Tax Administration review3 completed in
Fiscal Year 2004 determined that the TAT system had not been effectively implemented,
inventory control weaknesses for telephone calling cards had not been adequately addressed, and
policies and procedures had not been developed for completing annual inventory validations. In
response to this report, the IRS stated that the deficiencies in the TAT system would be corrected
through system upgrades, implementation of procedures requiring an annual inventory of
telephone calling cards, and routine reviews of telephone calling card charges.
This review was performed at the Office of the Chief Technology Officer (CTO) in
New Carrollton, Maryland, and the Detroit Computing Center in Detroit, Michigan. Work was
also performed at the Chief Financial Officer office at the Beckley Finance Center in
Beckley, West Virginia, during the period June through October 2008. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




3
 Telecommunications Costs Controls Have Not Been Effectively Implemented and Should Continue to Be Improved
and Monitored (Reference Number 2004-20-156, dated September 2004).
                                                                                                    Page 2
               Controls Over Employee Telephone Calling Cards Are Insufficient
                             to Identify Waste, Fraud, and Abuse




                                Results of Review

Overall, the IRS lacks effective controls to identify and address improper use of telephone
calling cards issued to employees. Specifically, telephone calling card charges are not routinely
reviewed for waste, fraud, and abuse, and a comprehensive inventory of telephone calling cards
is not completed annually. The IRS provided us with a number of reasons for the lack of both
routine reviews and annual comprehensive inventories of calling cards. These reasons included
1) technical problems in loading billing data into the TAT system, 2) failure to provide the
required computer matching program notification to the Office of Management and Budget and
members of Congress in a timely manner, which must occur before the system can be used for
this type of analysis, and 3) a lack of the resources needed to support the inventory process.
However, we believe the primary cause of the ongoing control weaknesses is a lack of sustained
and effective management oversight. In September 2004, we similarly reported that an effective
managerial review process for telephone calling card use had not been implemented, and annual
inventories of telephone cards have not occurred on a consistent basis. We further reported that
the TAT system had not been effectively implemented and critical information was not being
captured by the system. In response to our report, the IRS stated that the deficiencies in the TAT
system would be corrected through system upgrades, implementation of procedures requiring an
annual inventory of telephone calling cards, and routine reviews of telephone calling card
charges. Overall, we found that these corrective actions were either not taken or, if taken, were
not supported by sufficient and sustained managerial oversight to ensure that they provided a
long-term and effective solution to the issues they were designed to correct.

Telephone Calling Card Charges Are Not Routinely Reviewed for
Waste, Fraud, and Abuse
Office of Management and Budget Circular A-123 requires management controls to reasonably
ensure that programs and resources are protected from waste, fraud, and mismanagement. To
ensure the appropriate use of office equipment, the Department of the Treasury issued Treasury
Directive 87-04, Personal Use of Government Office Equipment Including Information
Technology, which authorized limited personal use of Federal Government office equipment by
employees under certain conditions. The IRS, for example, allows employees to make limited
use of employee telephone calling cards for necessary personal telephone calls.
On February 21, 2003, the IRS Chief Information Officer issued memoranda to all employees
and managers notifying them that the IRS would use the TAT system to perform quarterly
reviews of employee telephone calling card records that meet certain criteria. However, in
September 2004, we reported that an effective managerial review process of telephone calling

                                                                                           Page 3
               Controls Over Employee Telephone Calling Cards Are Insufficient
                             to Identify Waste, Fraud, and Abuse



card use had not been implemented and, as a result, questionable telephone calls were not being
regularly identified.
Our current review found that telephone calling card charges are still not subject to routine
review for unusual trends. For example, during the period October 2005 through August 2008,
the IRS successfully reviewed telephone calling card charges for potential waste, fraud, or abuse
only once. This review was performed in June 2008 using the TAT system and was limited to an
analysis of calls placed in March 2008. Also, teleconferencing-related telephone card charges
were not analyzed during the June 2008 review for unusual trends indicative of potential waste
or improper usage such as cancellation fees associated with teleconference calls which are not
cancelled in a timely manner. Teleconference-related charges constituted $7.4 million of the
approximately $8.4 million charged to telephone calling cards between October 2005 and
April 2008.
The June 2008 IRS review identified 700 telephone calls as requiring follow up by the
employee’s manager to determine whether the call was appropriate. However, as of
October 2008, employees’ managers responded regarding only 307 (44 percent) of the
700 telephone calls identified. In Fiscal Year 2004, we reported that the TAT system did not
include the ability to generate a report on the timeliness and nature of responses by employees’
managers. In response, the IRS stated that it would begin providing quarterly reports on
responses to the business units and operating divisions. However, these reports were not
prepared for the responses to the June 2008 review.
In addition, because the IRS performs its reviews so infrequently, it has no way of identifying
and addressing potential misuse of telephone calling cards in a timely manner. For example, our
limited analysis of telephone calling card billing records identified that the IRS incurred charges
of approximately $59,000 for improper telephone calls made primarily between the United States
and various foreign countries, using 1 calling card, from June 2007 through June 2008.
Although the IRS did identify calls on this card as suspicious during its June 2008 review and
cancelled the card, if this review had been performed in a more timely manner, the IRS could
have significantly reduced its liability. We referred this case to the Treasury Inspector General
for Tax Administration Office of Investigations for further review.
We also identified other telephone calling cards with unusually high monthly telephone call
activity. Specifically, we identified 14 telephone calling cards with $500 or more in charges
related to telephone calls in at least 1 month during the period October 2005 through
February 2008. In 1 case, a telephone calling card had charges over $500 in 9 separate months,
for a total of $9,332. Another had charges over 7 months for $8,330. Because the IRS did not
analyze telephone calling card calls made during the period of October 2005 through
February 2008, these charges were never subject to review. We referred these 14 telephone
calling cards to the IRS for further evaluation. In addition, we believe limiting the TAT system
quarterly reviews to an analysis of only 1 month of call activity is not sufficient to effectively


                                                                                             Page 4
               Controls Over Employee Telephone Calling Cards Are Insufficient
                             to Identify Waste, Fraud, and Abuse



and in a timely manner identify potential waste, fraud, and abuse relating to the use of telephone
calling cards.
Finally, although the TAT system was designed to allow for the analysis and certification of
monthly telecommunications billings by IRS business units and operating divisions, we found
that monthly billing information relating to telephone calling card charges is neither shared with
nor certified by the IRS functions whose employees actually incurred the charges. During the
period October 2005 through April 2008, the IRS incurred $7.4 million in charges related to
teleconferencing billed to telephone calling cards. While teleconferences are a useful and
necessary communication tool, the lack of shared information regarding the cost of this tool
makes it difficult for IRS functions to make informed decisions regarding the use of
teleconferences.
The IRS provided us with a number of reasons for the lack of routine reviews of telephone
calling card charges. These reasons included 1) technical problems in loading billing data into
the TAT system, 2) failure to provide the computer matching program notification required
before the TAT system can be utilized to analyze calling card charges in a timely manner, and
3) difficulties in assembling the employee contact information needed to perform an inventory
validation. However, we believe the primary cause of the ongoing control weaknesses is a lack
of sustained and effective management oversight. As a result, management cannot effectively
detect and deter fraudulent, wasteful, and abusive calling patterns and collect reimbursement for
unauthorized telephone calling card charges from employees.

Recommendations
Recommendation 1: The CTO should reinforce the need to review telephone calling card
charges quarterly for waste, fraud, and abuse and designate a specific executive within the CTO
function as responsible for ensuring the reviews are completed. These quarterly reviews should
be based on an analysis of 3 months of telephone calling card charges. The executive should
also ensure that review results are summarized and distributed to the business units and operating
divisions.
       Management’s Response: The IRS agreed with this recommendation. The Director
       of Enterprise Voice Services is the designated executive responsible for ensuring that the
       telephone calling card charges are reviewed for waste, fraud, and abuse on a quarterly
       basis. The IRS will also modify the current waste, fraud, and abuse runs to allow for a
       quarterly review of a sampling of the data captured across all 3 months of that quarter. In
       addition, the IRS will generate and distribute Business Operating Division waste, fraud,
       and abuse reports.
Recommendation 2: The CTO should require the performance of a comprehensive
assessment of the operational capabilities of the TAT system as it relates to the management of
telephone calling card costs. This assessment should focus on three key areas: 1) identification

                                                                                            Page 5
               Controls Over Employee Telephone Calling Cards Are Insufficient
                             to Identify Waste, Fraud, and Abuse



of the management information the IRS needs to effectively manage telephone calling card costs
and use (both telephone call and teleconference related); 2) a comparison of the functionality
currently provided by the TAT system to meet these needs; and 3) an evaluation of the costs
associated either with upgrading the TAT system to meet these needs or developing an
alternative methodology for managing telephone calling card costs.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       perform a comprehensive assessment of the TAT system by using the following
       approach:
       1. Conduct market/industry research with stakeholders and user information exchange
          sessions to identify the IRS’ management information needs.
       2. Perform a gap analysis to compare the existing capabilities of the TAT system against
          the management information and functional elements identified in the requirements
          phase and assess the TAT system’s ability to support these requirements.
       3. Identify the cost and requirements associated with upgrading the TAT system and
          alternative solutions in order to evaluate the costs associated with either upgrading the
          system or developing an alternative methodology for managing the phone card costs
          based on the gap analysis.

A Comprehensive Inventory of Telephone Calling Cards Is Not
Completed Annually
The Government Accountability Office Standards for Internal Control in the Federal
Government requires that periodic comparisons of resources with accountability records be
completed to reduce the risk of errors, fraud, or unauthorized use. In September 2004, we
reported that although the IRS had taken several measures to improve the management of issued
telephone calling cards, a complete inventory of the telephone calling cards had not been
conducted since 2002. IRS management stated at that time that a full audit of the telephone
calling card inventory would be conducted and that procedures requiring the annual validation of
telephone calling cards would be developed. The purpose of these validations is to verify
information on record regarding the cardholder as well as to validate with the cardholder’s
manager that the cardholder still needs the telephone calling card for business purposes.
The IRS has approximately 34,000 AT&T telephone cards issued to its employees. However,
the IRS has not validated its telephone calling card inventory since early in Fiscal Year 2006.
Although the IRS did prepare procedures requiring the annual validation of telephone calling
cards, these procedures were not always followed. The IRS stated that they did not perform a
telephone calling card validation in Fiscal Year 2007 or Fiscal Year 2008 because of difficulties
in determining cardholders’ managers and a lack of resources. The lack of an annual validation


                                                                                            Page 6
               Controls Over Employee Telephone Calling Cards Are Insufficient
                             to Identify Waste, Fraud, and Abuse



of the telephone calling card inventory increases the risk of the unauthorized use of IRS-issued
telephone calling cards.

Recommendation
Recommendation 3: The CTO should reinforce the need to conduct inventories annually and
designate a specific executive within the CTO function as responsible for ensuring the
inventories are completed. These inventories should focus on both verifying information on
record regarding the cardholder as well as validating that the cardholder still needs the telephone
calling card for business purposes.
       Management’s Response: The IRS agreed with this recommendation. The Director
       of Enterprise Voice Services is the designated executive who will ensure that an annual
       validation of the calling cards is in place.




                                                                                            Page 7
                Controls Over Employee Telephone Calling Cards Are Insufficient
                              to Identify Waste, Fraud, and Abuse



                                                                                          Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the IRS established effective
controls to identify and address instances of waste, fraud, and abuse relating to the use of
employee telephone calling cards. In addition, we followed up on prior audit recommendations
to determine whether corrective actions were completed to fully address selected audit findings.
To accomplish the audit objective, we:
I.      Determined whether the IRS has established an effective process for controlling
        telephone calling cards and identifying instances of telephone calling card-related waste,
        fraud, and abuse.
        A. Reviewed the procedures established by the IRS to ensure that it maintains accurate,
           current, and reliable data on telephone calling cards.
        B. Analyzed the results of the latest inventory performed on telephone calling cards.
        C. Followed up on selected prior audit recommendations1 to determine whether
           corrective actions related to telephone calling cards and teleconferencing were
           completed to fully address selected audit findings.
II.     Determined from our limited review of the data received directly from AT&T whether
        we could identify telephone calling card and teleconferencing patterns of activity
        indicative of potential fraud, waste, or abuse.
        A. Obtained from AT&T source billing records of IRS telephone calling card and audio
           teleconferencing activity.
        B. Performed a limited review of the data received from AT&T to determine whether
           usage patterns of the telephone calling cards and teleconferencing expenses indicated
           potential significant fraud, waste, or abuse. We focused our review on the period
           October 2005 through February 2008 because the IRS did not analyze telephone
           calling card activity during this period.




1
 Controls Over the Telecommunications Programs Continue to Need Improvement (Reference Number
2002-20-198, dated September 2002) and Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored (Reference Number 2004-20-156, dated
September 2004).
                                                                                                     Page 8
                 Controls Over Employee Telephone Calling Cards Are Insufficient
                               to Identify Waste, Fraud, and Abuse



        C. Referred any instances of significant, suspicious telephone calling card patterns to the
           Treasury Inspector General for Tax Administration Office of Investigations for
           further review.
III.    Determined whether the IRS has established an effective process for addressing identified
        instances of potential telephone calling card fraud, waste, and abuse.
        A. Reviewed copies of reports sent from the Detroit Computing Center2 to IRS managers
           to determine whether they timely addressed the suspicious call activity identified.
        B. Determined whether complete and reliable information related to telephone calling
           card costs is provided to managers.
In completing our review, we relied on detailed electronic billing data provided to us by AT&T.
In order to assess the reliability of this billing information, data types and data ranges were
reviewed for accuracy and the file structures and formats were reviewed and verified. During the
course of this review, we identified that 1 month of data was missing, and the missing data were
requested and incorporated into our testing. We found the data to be reliable for the purposes of
the audit and performed no other data validity tests.




2
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
                                                                                                      Page 9
             Controls Over Employee Telephone Calling Cards Are Insufficient
                           to Identify Waste, Fraud, and Abuse



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Anthony J. Choma, Audit Manager
James S. Mills, Jr., Lead Auditor
Mildred Rita Woody, Senior Auditor
Rashme Sawhney, Auditor
Jeffrey E. Williams, Assistant Director, Data Warehousing
Robert J. Carpenter, Information Technology Specialist




                                                                                  Page 10
              Controls Over Employee Telephone Calling Cards Are Insufficient
                            to Identify Waste, Fraud, and Abuse



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Financial Officer OS:CFO
Deputy Chief Financial Officer OS:CFO
Deputy Chief Technology Officer for Operations OS:CTO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons: Chief Financial Officer OS:CFO
                 Chief Technology Officer OS:CTO




                                                                       Page 11
               Controls Over Employee Telephone Calling Cards Are Insufficient
                             to Identify Waste, Fraud, and Abuse



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Cost Savings – Questioned Costs, Unallowable – Actual; $59,249 (see page 3).

Methodology Used to Measure the Reported Benefit:
Our review found that telephone calling card charges are not subject to routine review for
unusual trends. For example, during the period October 2005 through August 2008, the IRS
successfully analyzed calling card charges for potential waste, fraud, or abuse only once using
the TAT system.
Because the IRS performs its reviews so infrequently, it has no way of identifying and
addressing potential misuse of telephone calling cards in a timely manner. Our analysis of
telephone calling card billing records identified that the IRS incurred charges of $59,249 for
improper telephone calls made primarily between the United States and various foreign
countries, using 1 telephone calling card, from June 2007 through June 2008. We referred this
case to the Treasury Inspector General for Tax Administration Office of Investigations for
further review.




                                                                                          Page 12
   Controls Over Employee Telephone Calling Cards Are Insufficient
                 to Identify Waste, Fraud, and Abuse



                                                      Appendix V

Management’s Response to the Draft Report




                                                            Page 13
Controls Over Employee Telephone Calling Cards Are Insufficient
              to Identify Waste, Fraud, and Abuse




                                                         Page 14
Controls Over Employee Telephone Calling Cards Are Insufficient
              to Identify Waste, Fraud, and Abuse




                                                         Page 15
Controls Over Employee Telephone Calling Cards Are Insufficient
              to Identify Waste, Fraud, and Abuse




                                                         Page 16
